      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                         Washington, D.C. 20201




February 13, 2012

TO:            Marilyn B. Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Pilot Project to Obtain Missing Documentation Identified in the Fiscal Year 2010
               CERT Program (A-01-11-00502)


The attached final report provides the results of our pilot project to obtain missing documentation
identified in the fiscal year 2010 Comprehensive Error Rate Testing (CERT) Program.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Kay L. Daly, Assistant Inspector General for Audit Services, at
(202) 619-1157 or through email at Kay.Daly@oig.hhs.gov. We look forward to receiving your
final management decision within 6 months. Please refer to report number A-01-11-00502 in all
correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




PILOT PROJECT TO OBTAIN MISSING
DOCUMENTATION IDENTIFIED IN THE
FISCAL YEAR 2010 CERT PROGRAM




                       Daniel R. Levinson
                        Inspector General

                         February 2012
                         A-01-11-00502
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) established the Comprehensive Error
Rate Testing (CERT) program to produce a national Medicare fee-for-service (FFS) error rate.
An improper payment amount is the difference between the amount that Medicare paid a health
care provider and the amount that it should have paid. Using the results of the CERT program,
CMS annually submits to Congress an estimate of the amount of improper payments for FFS
claims, pursuant to the Improper Payments Information Act of 2002 (P.L. No. 107-300). The
national Medicare FFS error rate for fiscal year (FY) 2010 was 10.5 percent ($34.3 billion).
Executive Order 13520 requires Federal agencies, including CMS, to reduce improper payments
by “intensifying efforts to eliminate payment error, waste, fraud, and abuse in the major
programs” they administer. CMS has implemented numerous corrective actions to reduce
improper payments, including educating providers about the importance of submitting thorough
documentation to support the medical necessity of services and items.

CMS employs three contractors to administer the CERT program: (1) the CERT documentation
contractor requests and receives medical records from providers, (2) the CERT review contractor
selects claims samples and reviews the medical records obtained by the documentation
contractor, and (3) the CERT statistical contractor calculates error rates and the improper
payment amounts based on the review contractor’s determinations.

The CERT documentation contractor requests specific medical records from providers through
letters, faxes, and followup telephone calls. When a provider submits insufficient documentation
in response to the initial letter, the documentation contractor sends a followup letter or fax and
may attempt to telephone the provider to request additional documentation. If the provider fails
to respond to the initial letter, the documentation contractor sends up to three more requests to
the provider. Letters and faxes from the documentation contractor state that the provider may
submit an attestation statement if a signature is illegible or missing. In addition, the CERT
documentation contractor identifies referring providers (e.g., ordering physicians) and requests
documentation from them to support the medical necessity for items or services ordered by
billing providers (i.e., hospitals, suppliers, laboratories, and diagnostic testing facilities).

For FY 2010, the CERT review contractor sampled 79,872 claims valued at approximately
$57.8 million. The review contractor found that 20,481 sampled claims involved improper
payments valued at approximately $5.3 million. Our review covered 136 claims with improper
payments greater than $1,000 (total improper payments valued at $510,415) that the review
contractor identified during the FY 2010 error-rate process.

OBJECTIVE

Our objective was to determine whether additional documentation was available to enable the
CERT review contractor to overturn its claim payment denials and reduce the estimate of
improper payments made in the Medicare FFS program for FY 2010.



                                                i
SUMMARY OF FINDINGS

We obtained additional documentation that enabled the CERT review contractor to overturn, or
partially overturn, its claim payment denials for 46 of 136 claims (approximately 34 percent).
The CERT review contractor overturned its claim payment denials for 46 claims because it
determined that the additional medical records that we obtained were sufficient to show that the
services or items billed were medically necessary. The CERT documentation contractor did not
initially obtain all the necessary documentation for these 46 claims because it did not always
(1) contact referring providers directly to obtain documentation to support the medical necessity
of billing providers’ claims, (2) redirect followup documentation requests to compliance or
reimbursement personnel, or (3) seek signature attestations when signatures on clinicians’ notes
were illegible or missing.

For the remaining 90 claims, the CERT review contractor upheld its denials because providers
did not produce requested documentation or the review contractor determined that the
documentation we obtained did not sufficiently support the medical necessity of the claims.

Additional efforts to obtain missing documentation could more clearly reflect the true status of
improper payments in the national Medicare FFS error rate estimate. Based on our results, the
CERT statistical contractor estimated that additional documentation to overturn claim payment
denials would have reduced the FY 2010 error rate estimate from 10.5 percent to 10.2 percent,
which would have reduced the estimate of improper payments by approximately $956 million.

RECOMMENDATIONS

We recommend that CMS:

   •   continue to educate providers on the documentation required to support the medical
       necessity of services and items billed to Medicare;

   •   assess the improper payments identified by the CERT review contractor and the
       overturned denials of claim payments noted in this report to identify the population of
       claim payment denials that would benefit from additional requests for medical records;
       and

   •   ensure that the CERT documentation contractor follows established procedures in
       seeking signature attestations when signatures on clinicians’ notes are illegible or are
       missing and clarify existing procedures, including:

           o contacting referring providers directly to obtain documentation, when applicable,
             to support the medical necessity of billing providers’ claims and

           o redirecting followup documentation requests, when necessary, to compliance or
             reimbursement personnel.




                                                ii
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS neither agreed nor disagreed with our first
recommendation and did not agree with our second and third recommendations.

Regarding our first recommendation, CMS stated that it conducts many activities to educate
providers on Medicare documentation requirements. CMS disagreed with our second
recommendation and stated that throughout 2011, it had intensified efforts to obtain
documentation for claims that have the greatest impact on the error rate, and it plans to continue
improving this process. With regard to our third recommendation, CMS stated that it “disagrees
that additional contractor monitoring activities are necessary.” According to CMS, the
documentation contractor consistently follows the guidelines and practice standards in its
statement of work. However, CMS stated that it is conducting an independent verification and
validation of the CERT internal processes, including a detailed review of the documentation
contractor’s processes to improve its rate of success.

In addition, CMS provided technical comments, which we addressed in this report as
appropriate. CMS’s comments, excluding its technical comments, are included as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding CMS’s comments on our first recommendation, we acknowledge CMS’s efforts to
educate providers on Medicare documentation requirements. However, for more than one-third
of the claims in our review, we were able to obtain additional and necessary medical records that
the CERT documentation contractor did not obtain. Therefore, we encourage CMS to continue
its efforts to educate providers on the documentation requirements needed to support the medical
necessity of services and items billed to Medicare.

Regarding CMS’s comments on our second recommendation, we continue to recommend that
CMS assess the improper payments identified by the CERT review contractor and the overturned
claim payment denials noted in this report to identify the population of claim payment denials
that would benefit from additional requests for medical records. Analyzing claim payment
denials would enhance CMS’s efforts to focus on claims that have the greatest impact on the
error rate.

Regarding CMS’s comments on our third recommendation, the CERT documentation contractor
did not always take steps to obtain missing documentation, including signature attestations.
Therefore, we continue to recommend that CMS ensure that the CERT documentation contractor
follow established procedures for seeking attestations and clarify existing procedures on
contacting referring providers and redirecting followup documentation requests to compliance or
reimbursement personnel.




                                                iii
                                                   TABLE OF CONTENTS
                                                                                                                                  Page

INTRODUCTION.................................................................................................................1

       BACKGROUND ...........................................................................................................1
          Medicare Error Rate Program ...............................................................................1
          Executive Order 13520 .........................................................................................1
          CERT Contractors’ Roles .....................................................................................1
          Medical Record Collection Process ......................................................................1
          Medical Review Error Codes ................................................................................2

       OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
           Objective ...............................................................................................................2
           Scope .....................................................................................................................3
           Methodology .........................................................................................................3

FINDINGS AND RECOMMENDATIONS .......................................................................4

       DENIALS OVERTURNED ..........................................................................................5

       DENIALS UPHELD ......................................................................................................6

       REFERRALS OF POTENTIAL FRAUD .....................................................................6

       ADDITIONAL EFFORTS COULD REDUCE ERROR RATE ...................................6

       RECOMMENDATIONS ...............................................................................................7

       CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..................7

       OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................8

APPENDIX

       CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                     iv
                                       INTRODUCTION

BACKGROUND

Medicare Error Rate Program

The Centers for Medicare & Medicaid Services (CMS) administers Medicare and established the
Comprehensive Error Rate Testing (CERT) program to produce a national Medicare
fee-for-service (FFS) error rate. An improper payment amount is the difference between the
amount that Medicare paid a health care provider and the amount that it should have paid. Using
the results of the CERT program, CMS annually submits to Congress an estimate of the amount
of improper payments for FFS claims, pursuant to the Improper Payments Information Act of
2002 (P.L. No. 107-300) as amended by the Improper Payments Elimination and Recovery Act
of 2010 (P.L. No. 111-204). The national Medicare FFS error rate for fiscal year (FY) 2010 was
10.5 percent ($34.3 billion).

Executive Order 13520

Executive Order 13520, issued on November 20, 2009, requires Federal agencies, including
CMS, to reduce improper payments by “intensifying efforts to eliminate payment error, waste,
fraud, and abuse in the major programs” they administer while continuing to ensure that the
programs serve their intended beneficiaries. CMS has implemented numerous corrective actions
to reduce improper payments, including educating providers about the importance of submitting
thorough documentation to support the medical necessity of services and items. CMS has also
stated that it plans to analyze the improper payment data from the CERT program and make
changes in areas that show programmatic weakness.

CERT Contractors’ Roles

CMS employs three contractors to administer the CERT program: (1) the CERT documentation
contractor requests and receives medical records from providers, (2) the CERT review contractor
selects claims samples and reviews medical records obtained by the documentation contractor,
and (3) the CERT statistical contractor calculates error rates and improper payment amounts
based on the review contractor’s determinations.

Medical Record Collection Process

CMS requires the CERT documentation contractor to collect medical records from providers.
The documentation contractor requests specific medical records from providers through letters,
faxes, and followup telephone calls. When a provider submits insufficient documentation in
response to the documentation contractor’s initial letter, the documentation contractor sends a
followup letter or fax and may attempt to telephone the provider to request additional
documentation. If the provider fails to respond to the initial letter, the documentation contractor
sends up to three more requests to the provider. The final request informs the provider that
actions may be taken to deny and recover payment for all services billed on the claim if the
provider does not respond to the request for medical records within 15 days. Letters and faxes

                                                 1
from the documentation contractor state that the provider may submit an attestation statement if a
signature in the documentation is illegible or missing. 1 In addition, the documentation contractor
identifies and contacts referring providers (e.g., ordering physicians) to request documentation to
support the medical necessity for items or services ordered that support claims from billing
providers (i.e., hospitals, suppliers, laboratories, and diagnostic testing facilities).

Medical Review Error Codes

The CERT review contractor uses the following descriptions to classify most of the improper
payments for its medical reviews of claims:

    •    No-documentation improper payments are for claims for which the CERT documentation
         contractor receives no documentation after it completes its request process.

    •    Insufficient-documentation improper payments are for claims for which a provider
         submits some documentation, but the CERT review contractor determines that it is not
         sufficiently conclusive to support the provided service. 2

    •    Incorrectly coded improper payments are for claims that are billed and paid based on a
         procedure code that the CERT review contractor determines does not accurately reflect
         the service provided.

    •    Medically unnecessary improper payments are for claims for which there is sufficient
         documentation in a medical record to allow the CERT review contractor to conclude that
         the services are not medically necessary.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether additional documentation was available to enable the
CERT review contractor to overturn its claim payment denials and reduce the estimate of
improper payments made in the Medicare FFS program for FY 2010.




1
  CMS Transmittal No. 327, issued on March 16, 2010, and retroactive for the FY 2010 CERT error rate, clarifies
and updates previous provider signature requirements in the Medicare Program Integrity Manual. This policy
stipulates that medical review contractors shall accept a signature attestation from the author of the medical record
entry if the signature is illegible or missing from medical documentation, unless the signature is missing from an
order.
2
 This error code includes instances of inadequate documentation. For example, the review contractor has a
complete medical record, but the clinician’s notes are not detailed enough for medical reviewers to determine
medical necessity. In such cases, the medical records are available but cannot support the billed services.


                                                           2
Scope

For FY 2010, the CERT review contractor sampled 79,872 claims valued at approximately
$57.8 million. The review contractor found that 20,481 sampled claims involved improper
payments valued at approximately $5.3 million. Our review covered 136 claims with improper
payments greater than $1,000 (total improper payments valued at $510,415) that the review
contractor identified during the FY 2010 error-rate process. 3 The review contractor confirmed
that these claims were missing sufficient documentation for it to make an informed decision that
the services or items billed were medically necessary.

We limited our review of internal controls to obtaining an understanding of CMS’s written
policies regarding medical reviews. We performed our fieldwork from February through April
2011.

Methodology

To accomplish our objective, we:

     • reviewed CMS requirements regarding the CERT process for obtaining documentation
       for medical record review;

     • identified 136 claims with improper payments greater than $1,000 for which we
       attempted to obtain missing documentation by:

            o contacting billing providers through telephone calls, letters, or onsite visits;

            o contacting referring providers, as necessary, to obtain medical records that
              supported billing providers’ claims;

            o requesting and receiving clinician attestation statements for certain medical
              records that were not signed or had illegible signatures; and

            o locating providers by searching the Internet and contacting postal authorities;

     • provided medical records to the CERT review contractor so it could determine whether
       the documentation would change its decisions to deny claim payment;

     • recalculated the review contractor’s partially overturned claims to determine the revised
       value of the claims;



3
  The CERT review contractor determined that 228 claims with improper payments greater than $1,000 had
insufficient or no documentation. We identified 71 additional claims that we reclassified from medically
unnecessary to insufficient documentation. Of these 299 claims, we excluded 163 claims: 87 claims with
inadequate initial documentation, 75 claims under provider appeal, and 1 claim for which the CERT documentation
contractor received adequate documentation after the start of our review.

                                                       3
        • worked with the CERT statistical contractor to estimate the impact of the additional
          documentation that we obtained on the FY 2010 national Medicare FFS error rate; 4 and

        • discussed the results of our review with CMS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

We obtained additional documentation that enabled the CERT review contractor to overturn, or
partially overturn, its claim payment denials for 46 of 136 claims (approximately 34 percent).
The CERT review contractor overturned its claim payment denials because it determined that the
additional medical records that we obtained were sufficient to show that the services or items
billed were medically necessary. The CERT documentation contractor did not initially obtain all
the necessary documentation for these 46 claims because it did not always (1) contact referring
providers directly to obtain documentation to support the medical necessity of billing providers’
claims, (2) redirect followup documentation requests to compliance or reimbursement personnel,
or (3) seek signature attestations when signatures on clinicians’ notes were illegible or were
missing.

For the remaining 90 claims, the CERT review contractor upheld its denials because providers
did not produce requested documentation or the review contractor determined that the
documentation we obtained did not sufficiently support the medical necessity of the claims. We
determined that 5 of the 90 claims may have involved billing fraud. We referred these claims to
the Office of Inspector General (OIG), Office of Investigations (OI).

Although the CERT documentation contractor has a rigorous record-collection process,
additional efforts to obtain missing documentation could more clearly reflect the true status of
improper payments in the national Medicare FFS error rate estimate. Based on our results, the
CERT statistical contractor estimated that additional documentation to overturn claim payment
denials would have reduced the FY 2010 error rate estimate from 10.5 percent to 10.2 percent,
which would have reduced the estimate of improper payments by approximately $956 million. 5




4
    The CERT statistical contractor recalculated the error rate estimate using the revised overpayment amounts.
5
 Because of OIG’s statutory authority, some providers may have been more responsive to our requests for
documentation than they would have been to similar requests from the CERT documentation contractor.

                                                           4
DENIALS OVERTURNED

The CERT review contractor overturned its denials for 46 claims because the medical records we
obtained were sufficient to allow it to conclude that the services or items billed were medically
necessary. 6 For example:

    •    For a hospital inpatient claim for the treatment of a postoperative infection, we contacted
         the referring provider to obtain the physician’s order for scheduled intravenous
         medications. We gave the CERT review contractor this documentation. Using this new
         information, the review contractor overturned its denial of $20,332.

    •    For a durable medical equipment (DME) supplier’s claim for a prosthetic limb, we
         contacted the referring provider to obtain the ordering physician’s clinical documentation
         that included the patient’s functional abilities, history of prior prosthetic use, the patient’s
         desire to walk, and the clinical assessment of the patient’s rehabilitation potential. We
         gave the CERT review contractor this documentation. Using this new information, the
         review contractor determined that the claim was reasonable and necessary and overturned
         its denial of $3,716.

    •    For a hospital outpatient claim for chemotherapy drugs, we provided the CERT review
         contractor with the physician’s order. After several unsuccessful attempts to obtain the
         physician’s order from the hospital’s medical records department, we redirected our
         request to the reimbursement manager, who provided the physician’s order. Using this
         new information, the review contractor determined that 17 of 23 lines of service on the
         claim were reasonable and necessary and overturned $2,399 of its denial of $2,762.

    •    For a physician claim for a chest procedure, we provided the CERT review contractor
         with a signature attestation that the medical record entry for the date of service accurately
         reflected the physician’s signature made in his capacity as a medical doctor. Using this
         new information, the review contractor overturned its denial of $1,476.

The CERT documentation contractor did not obtain these records because it did not always:

    •    contact referring providers directly to obtain documentation to support the medical
         necessity of billing providers’ claims,

    •    redirect followup documentation requests to compliance or reimbursement personnel, or

    •    seek signature attestations when signatures on clinicians’ notes were illegible or were
         missing. 7

6
  For 30 claims, the CERT review contractor changed initial claim payment denials to full payments. For the
remaining 16 claims, the review contractor changed initial claim payment denials to partial payments.
7
 According to CMS, the CERT documentation contractor attempted to obtain all of the attestations for claims
denied based on missing signatures, but the contractor was unable to obtain all attestations within the allowed period
because of time constraints.

                                                          5
DENIALS UPHELD

The CERT review contractor upheld its denials for 90 claims because providers did not produce
requested documentation or the review contractor determined that the documentation did not
sufficiently support the medical necessity of the claims. For example:

   •   For a hospital inpatient claim for a urinary tract infection, we provided the CERT review
       contractor with the patient’s history and physical, an emergency department assessment,
       a patient care form documenting the patient’s interhospital transport, and other records.
       However, the review contractor upheld its denial because the physician’s admission order
       for inpatient care was missing, and we could not obtain it.

   •   For a hospital inpatient psychiatric facility claim for the treatment of substance abuse, we
       provided the CERT review contractor with the entire medical record, including
       documentation on the hospital admission, any evaluation reports, and the patient’s
       progress. However, the review contractor determined that the records showed the
       inpatient hospital admission was not required because the beneficiary was stable.
       Pursuant to section 1862(a)(1)(A) of the Social Security Act and 42 CFR §§ 412.27(a)
       and 482.61, the review contractor reclassified this improper payment from “insufficient
       documentation” to a “medically unnecessary” inpatient admission because patient care
       could have been provided on an outpatient basis.
REFERRALS OF POTENTIAL FRAUD

Of the 90 claim payment denials that were upheld by the review contractor, we determined that 5
may have involved billing fraud. For three of these claims, we determined the potential fraud
through unannounced visits to the offices of the billing suppliers and ordering physicians. We
could not locate these suppliers at their last known addresses or elsewhere. The physicians either
had no record of these beneficiaries or stated that they did not order the items billed by the
suppliers. For one claim, the physician identified as the ordering physician stated that he did not
order the DME supplies. For another claim, the owner of a DME company that we were unable
to contact had already been charged with health care fraud. We referred these claims to OI. The
CERT documentation contractor did not have reason to suspect these five claims were
potentially fraudulent because the suppliers provided requested documentation.

ADDITIONAL EFFORTS COULD REDUCE ERROR RATE

Although the CERT documentation contractor has a rigorous record-collection process,
additional efforts to obtain missing documentation could more clearly reflect the true status of
improper payments in the national Medicare FFS error rate estimate. Our additional efforts
included (1) contacting referring providers directly to obtain documentation to support the
medical necessity of billing providers’ claims, (2) redirecting followup documentation requests
to compliance or reimbursement personnel, or (3) seeking signature attestations when signatures
on clinicians’ notes were illegible or were missing.




                                                6
The CERT statistical contractor recalculated the FY 2010 error rate based on the 46 overturned
claims payment denials. The revised error rate was 10.2 percent, reducing the error rate by
0.3 percent and the estimate of improper payments by approximately $956 million.

RECOMMENDATIONS

We recommend that CMS:

   •   continue to educate providers on the documentation requirements needed to support the
       medical necessity of services and items billed to Medicare;

   •   assess the improper payments identified by the CERT review contractor and the
       overturned denials of claim payments noted in this report to identify the population of
       claim payment denials that would benefit from additional requests for medical records;
       and

   •   ensure that the CERT documentation contractor follows established procedures in
       seeking signature attestations when signatures on clinicians’ notes are illegible or are
       missing and clarify existing procedures, including:

           o contacting referring providers directly to obtain documentation, when applicable,
             to support the medical necessity of billing providers’ claims and

           o redirecting followup documentation requests, when necessary, to compliance or
             reimbursement personnel.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS neither agreed nor disagreed with our first
recommendation and did not agree with our second and third recommendations.

Regarding our first recommendation, CMS stated that it conducts many activities to educate
providers on Medicare documentation requirements. CMS disagreed with our second
recommendation to identify the population of claims that would benefit from additional requests
for medical records. CMS stated that throughout 2011, it had intensified efforts to obtain
documentation for claims that have the greatest impact on the error rate, and it plans to continue
improving this process. With regard to our third recommendation, CMS stated that it “disagrees
that additional contractor monitoring activities are necessary.” According to CMS, the
documentation contractor consistently follows the guidelines and practice standards in its
statement of work. However, CMS stated that it is conducting an independent verification and
validation of the CERT internal processes, including a detailed review of the documentation
contractor’s processes to improve its rate of success.

In addition, CMS provided technical comments, which we addressed in this report as
appropriate. CMS’s comments, excluding its technical comments, are included as the Appendix.


                                                 7
OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding CMS’s comments on our first recommendation, we acknowledge CMS’s efforts to
educate providers on Medicare documentation requirements. However, for more than one-third
of the claims in our review, we were able to obtain additional and necessary medical records that
the CERT documentation contractor did not obtain. Therefore, we encourage CMS to continue
its efforts to educate providers on the documentation requirements needed to support the medical
necessity of services and items billed to Medicare.

Regarding CMS’s comments on our second recommendation, we continue to recommend that
CMS assess the improper payments identified by the CERT review contractor and the overturned
claim payment denials noted in this report to identify the population of claim payment denials
that would benefit from additional requests for medical records. Analyzing claim payment
denials would enhance CMS’s efforts to focus on claims that have the greatest impact on the
error rate.

Regarding CMS’s comments on our third recommendation, the CERT documentation contractor
did not always take steps to obtain missing documentation, including signature attestations.
Therefore, we continue to recommend that CMS ensure that the CERT documentation contractor
follow established procedures for seeking attestations and clarify existing procedures on
contacting referring providers and redirecting followup documentation requests to compliance or
reimbursement personnel.




                                                8
APPENDIX
                                                                                                         Page l of3


APPENDIX: CENT ERS FOR MEDI CARE & MEDICAID SERVICES COMMENTS
  /~   ........ 

(     ~             DEPARTMENT OF HEALTH & HUMAN SERVICES

  '.<::~"z"'"                                                                             Aflminis'ralor
                                                                                          WMhlnglon, DC 20201




                    DATE:            NOV 2 3 1011
                    TO: 	         Daniel R. Levinson 

                                  Inspecto r General 


                    F ROM : 	     Do~ld.M. Berwick.,
                                  AdmInistrator 	
                                                         MP.~~                      f'L  c--:J
                                                                                          AM
                                                                                    f ~'Vv ­
                                                                                                           _
                    SUBJECT: 	 O ffi ee of lnspc<:lOr General (010) Pilot Project to Obtain Missing
                               Documentation Identified in the Fiscal Year 201 0 Comprehensive Error
                               Rate Testing Program (A-Ol- ll -00502)


                    Thank. you for the opportunity to review and comme nt on this 010 pilot project. The
                    Centers for Medicare & Medicaid Services (CMS) appreciutes the time and resources the
                    010 invested in detennining that additional doc umentation is available to overturn many
                    claim payment denials. which may ultimately red uce the incidence of improper payments
                    in the Medicare Fcc for Service (FFS) prob'Tam and result in a more accurate calculation
                    of the elTor ratc. In thi s particular study, the OIG was able to obtain additional
                    documentation Ihat enabled the Comprehensive Error Rate Testing (CERT) review
                    contraclor to partially. or completely. overturn 34 percent of the 136 clai ms sampled .
                    eMS is comlnitted to reporting an accurate estimate of improper payments and
                    continuously looked for ways to improve the error rote measurement processes. We
                    recognize the importance of obtaining all available medical record documentation when
                    making improper payment detenninations. In fac t, prior to the receipt oflhe DIG
                    recommendatio ns. CMS had already implemented the activities recommended by the
                    DIG as part of our ongoing process improveme nts. We look forward to continuing work
                    with the OIG to decrease improper payments and more accurately refl ect the incidence of
                    improper pa)'mcnts in the Medicare FFS program.

                    We reviewed the report and our responses to your recommendations arc below.

                    ole  Recommendation
                    Continue to educate prov iders on the documentation req uirements needed to support the
                    medical necessity ofserviees and items billed to Medicare.

                    CMS Res[!onse
                    T he C MS curre ntly conducts many activities to educute providers on the Medicare
                    documentation req uirements. First, CMS publishes quarterly Provider Compliance
                    Newsletters, located at
                                                                                               Page 2 of 3




Pab'C 2 - Daniel R. Levinson

hnp:!lwww.cms.gov/MLNProc!uctsidownloudsIMcdOtrlyCompNL Archive.pdf. CMS
began publishing this newsletter in October 2010. Second, CMS distributes Comparative
Billing Rcpons (CBRs) to a select number of providers in designated specialties. The
goal of the CBR is to show providers what their billing patterns are in comparison to their
peers and to help providers identify potential errors in their billing practice. Third, eMS
conducts regular provider outreach calls nationally and \\-i thin Medicare claims
processing contractor local areas. Fourth, Medicare claims processing contractors
regularly publish anicles on Local Coverage Detennination policies and pTCsent
information regarding the CERr program nnd documentation requirements on their
websilCS.

Many insuffi cient documentation errors are due to situations where the provider who
submits a claim for an item or service is not the ordering or referring physician (e.g.,
durable medical equipment (DME) or laboratory services). It is often a challenge to
obtain proper medical record documentation from the medical professional who ordered
the item or service since it is not their payment that is under review. CMS implemented a
process to notify the ordering physician when one of these items or services is selccted
for CERT review. The notification reminds physicians of their responsibility to maintain
documentation of medical necessity and submit requested documentation. In addition,
eMS is educating physicians on documentation requirements for DME and laboratory
services.

OIG lIecommendation
Assess the improper payments identified by the CERT review contractor and the
overturned denials of claim payments identified in this report to identify the population of
claim payment denials that would benefit from additional requests for medical records.

eMS Response
The CMS respectfully disagrees that this process is necessary to identify the population
ofclaims CMS will focus on for additional documentation requests. In 2010, eMS
cstablished a process to make additional calls to secure documentation from providers
and supplicrs. Throughout 2011, CMS continued this effort and refined it to focus on
claims that have the grealest impact on the I:rror rute. We believe this refined process
makes the best use of CMS and contractor resources. CMS has been successful in
obtaining additional documentation and we plan to continue and improve this proccss.

01(;  Recom mendation
Ensure that the CERT documentation contractor follo....'S established procedures in
seeking signature attestations when signatures on clinicians' nOles are illegible or are
missing and clarify existing procedures, including: contacting referring providers
directly to obtain documentation, when applicable, to support the medical necessity of
billing providers' claims and redirecting follow up documentation requests, when
necessary, to compliance or reimbursement personnel.
                                                                                            Page 3 of 3




Pagc 3 - Daniel R. Levinson


eMS Rupon ~e
The eMS respectfu lly disagrees that additional contractor monitoring activities are
necessary. The CMS established processes to continuously monitor the CERT
contructors' activities. We found that the CERT documentation contractor consistentl y
follows the guidelines and practice standards withi n its statement of work. In addition,
we closely monitor the documentation contractor through monthly onsile visits and
weekIy status meetings. Lastly, we arc currently conducting an indt!pendent verification
and validation of the CERT internal processes, which includes a detailed review of the
documentation contractor's processes. We will continue to monitor its process and make
suggestions to improve its rate of success.
